JUDD E. STONE II
Solicitor General

(512) 936-1700
Judd.Stone@oag.texas.gov

July 19, 2021
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Melissa Elizabeth Lucio v. Bobby Lumpkin, Director, Texas Department
of Criminal Justice, Institutional Division, No. 21-5095 (Capital Case)

Dear Mr. Harris:
In accordance with Supreme Court Rule 30.4, Respondent Bobby Lumpkin,
Director, Texas Department of Criminal Justice, Institutional Division, respectfully
moves for an extension of the time for filing the response to the petition for a writ of
certiorari in this matter.
Petitioner filed a petition for a writ of certiorari on July 9, 2021. It was docketed
on July 13, 2021, creating a deadline for Respondent’s response of August 12, 2021.
Respondent requests a 30-day extension of that deadline, creating a new filing date
of September 13, 2021.1
My staff reached out to counsel for Petitioner via email to ask for Petitioner’s
position on this motion. Petitioner’s counsel advised that the requested extension is
unopposed.
The extension is necessary because lead counsel for Respondent faces additional
briefing obligations since Petitioner filed the petition for certiorari. The press of
1 Thirty days from August 12 is September 11, which is a Sunday; thus, the operative deadline

would be Monday, September 13.
P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

Page 2
business from numerous, complex matters with deadlines near the current deadline
require significant time and attention from the undersigned counsel and other
counsel assisting with this matter:
• In re Y.J., No. 20-0081 (Tex.) (reply merits brief due July 21, 2021)
• Dobbs v. Jackson Women’s Health Org., No. 19-1392 (U.S.) (amicus brief due
July 29, 2021)
• Will v. Lumpkin, No. 20-1669 (U.S.) (brief in opposition due August 2, 2021)
• HCC v. Wilson, No. 20-804 (U.S.) (amicus brief due July 21, 2021)
• Prible v. Lumpkin, No. 20-70010 (5th Cir.) (reply brief due July 27, 2021)
• Shinn v. Martinez Ramirez, No. No. 20-1009 (U.S.) (amicus brief due July 22,
2021)
In addition, counsel assisting with this matter will be on vacation during the weeks
of July 26, 2021, and August 2, 2021.
For the foregoing reasons, Respondent respectfully requests a 30-day extension
of the deadline to file the response to the petition for a writ of certiorari, creating a
new deadline of September 13, 2021.
Respectfully submitted.
/s/ Judd E. Stone II
Judd E. Stone II
Solicitor General
Counsel of Record
cc: A. Richard Ellis (via e-mail)

P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

